HHS/OIG, Audit - "Follow-Up Audit of the Medicaid Drug Rebate Program in
Montana," (A-07-07-03101)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Follow-Up Audit of the Medicaid
Drug Rebate Program in Montana," (A-07-07-03101)
June 6, 2008
Complete Text of Report is available in PDF format (1.68 mb).
Copies can also be obtained by contacting the Office of Public Affairs at
202-619-1343.
EXECUTIVE SUMMARY:
In a follow-up audit of Montanas Medicaid drug rebate
program, we found that the State had partially
corrected some of the weaknesses reported in our previous audit.
Manufacturers may make their outpatient drugs eligible for Federal Medicaid
funding by entering into a rebate agreement with the Centers for Medicare &
Medicaid Services and paying quarterly rebates to the States.  However, the
States accounts receivable system conversion remained incomplete.
Additionally, the State did not implement recommendations
related to (1) tracking $0 unit rebate amounts (URA) to ensure payment; (2)
adjusting URA information to ensure that accounts receivable records are
accurate; and (3) actively pursuing disputed drug rebates, including utilization
of the States hearing mechanism.  The State had, however, established controls
over collecting rebates on single-source drugs administered by physicians.
We recommended that the State complete its accounts
receivable system conversion by determining an accurate accounts receivable
balance for each manufacturer.  We also recommended that the State develop and
follow policies and procedures that include (1) tracking $0 URAs to ensure
payment; (2) adjusting URA information to ensure that accounts receivable
records are accurate; and (3) actively pursuing disputed drug rebates, including
utilization of the States hearing mechanism.
In written comments on our draft report, the State
generally concurred with all of our findings and recommendations.